20
filed
In The

0! 2020

Supreme Court of the United States

AUDREY L. KIMNER
Petitioner,

v.
WEB WATCHERS, BRAD MILLER, CEO; MIKE OSBORN, Co- Founder of
AWARENESS TECHNOLOGIES; RON PENNA, Co - Founder of
AWARENESS TECHNOLOGIES; MICHAEL J. KIMNER; LORI D. STONEY,
Esq.; MARGARET THEOS, Esq.; J.TODD MANLEY, Esq.; THOMAS
KIMNER; SUZANNE GROFF, Esq.; ALEX CASH, Esq.; SUSAN KIMNER
Respondents

On Petition For A Writ of Certiorari in the United States
Supreme Court of Appeals for the Ninth Circuit, San Francisco, CA

PETITION FOR A WRIT OF CERTIORARI

AUDREY L. KIMNER.
Petitioner, Pro Se
P.O. Box 1493
Carmel, CA. 93921
audrevkimnerl 0@amail.com

QUESTIONS PRESENTED
ii

1. Whether the Supreme Court finds it appropriate by law, The United States
Constitution and Federal Rule 60 to VACATE all attached federal orders in
case No. 20-15343 and No. 5:19-cv-06973 due to violations of petitioners First
Amendment Rights, which reflects VACATED orders by Honorable Magistrate
Nathanael Cousins and denied petitioners Rights under 28 U.S.G.§ 636 ©.
Note: Petitioner overnighted a Writ of Certiorari to the Supreme Court one day
prior to any knowledge of a Mandate order in this case, Writ submitted by United
States mail date of November 30, 2020, and resubmitted on December 19, 2020
to date per court clerks request.

2. Whether the California District Court in San Jose and the Ninth Circuit Court of Appeals
Intentionally and willfully deprived petitioner of all Rights under 18 U.S.C. § 242, denying
Equal Protections under the law while ignoring a pattern over ten years of multiple
Federal offenses and Constitutional violations by all Respondents with new case law
by an Honorable Ohio Sixth Circuit Court judge.

3.

Whether the California Courts failed to acknowledge multiple violations of No Due
Process by holding petitioner against petitioners will under a false bench warrant
concerning Petitioners home contract against an irrevocable Binding Arbitration award
while failing to offer petitioner Procedural Due Process from October 2019 to date, nor
any resolve or assistance, as petitioner is a victim of assault and financial abuse.

4. Whether petitioner was intentionally denied a trial by jury against petitioners Sixth
Amendment Right.

5. Whether the District Court judge and the Ninth Circuit judge’s intentionally retracted
Petitioners Forma Properous in retaliation for filing an appeal, vilified petitioner in court
Orders stating petitioner filed a frivolous complaint and a malicous litigant while ruling
In error of Rooker Feldman Doctrine on speculation, not Federal law or Constitutional
Violations with no hearing against petitioners Right to be heard under The United States
Constitution.

ii
QUESTIONS PRESENTED CONTINUED

6. Whether this Racketeer Influence Corrupt Organization Act case involving Wiretapping
and multiple Federal crimes should have been taken seriously by the California District Court
and The Ninth Circuit Court of Appeals.

7. Whether the California courts intentionally ignored Mortgage fraud and violated public trust
laws in this case.

i
LIST OF PARTIES
The following is a list of all parties to the proceedings in this court below, as required by Rule
24.1 (b) and Rule 29.1 of the Rules of the Supreme Court of the United States.

1. Audrey L. Kimner, Petitioner;
2. Brad Miller, CEO, Web Watchers, Awareness Technologies;
3.

Mike Osborn, Co Founder of Awareness Technologies;

4. Ron Penna, Co Founder of Awareness Technologies;
5. Michael J. Kimner;
6. Lori D. Stoney, Esq.;
7. Paul Tinkler, Esq.;
8. Jerry Theos, Esq.;
9. Margaret Theos, Esq.;
10. J. Todd Manley, Esq.;
11. Thomas Kimner;
12. Susan Kimner;
13. Alex Cash, Esq.;
14. Suzanne Groff, Esq.;

iii
TABLE OF CONTENTS
Pages

1. List of Parties
2. Questions Presented and Continued

ii

3. Table of Contents

iii

4. Table of Authorities

iv

5. Orders attached.....................................................................................
Judgement, February 6, 2020, TIME SCHEDULE ORDER, March 02,2020,
Order Revoking plaintiffs Forma Pauperis Status, March 20, 2020, Ninth
Circuit Full Brief filed on October 05, 2020, Ninth Circuit Order to Dismiss
October 29, 2020, Mandate filed November 20, 2020 prior to recieving and
Submitting Writ of Certiorari, Misc., Letter from DOJ and President, Proof of
Overnight filing of Writ of Certiorari, December 01, 2020 at 11:03 AM.
6. Summary

1

7. Opinions Below

1

8. Jurisdiction

2

9. Constitutional and Statutory Provisions Involved

2,3

10. Statement of Case with Facts of Law and Answers
11. Conclusion

,4-10

11

12. Judges Errors, Canon of Ethics and Reasons for granting this Writ...... 12
13. Certificate of Length and Signature Page

13

iv
TABLE OF AUTHORITIES
No.

Pages

1. Cullen and Zoom Video Communication, Inc, No.5:20-cv-2155 (N.D.Cal),

5

2. Scheidler v National Organization For Women, (2006)

7,10

3. Luis v Zang, 833 F 3.d 619 (6th Cir. 2016)

8,9

4. Potts v Lazarin, N0.HO44587 (6th Cir.2020)

12

5. Troxel v Granville, Pg 99-138 (2000)

7

6. United States v Kernall, 667 F. 3d 746 (6th Cir.) (2012)

9,io

7. Baldwin v New York, 399 United States 117(1970)

8

8. Lance v Dennis, 546 U.S.C. 459 (2006)

8

9. Rooker Feldman Doctrine

1

10. Crandall v Nevada, 75 US 35, Supreme Court 1868

9

11. National Audubon Society v Superior Court, 33 Cal. 3d, 419 (1983)..:

10

Equal Protections Under the Law...................................................
Federal Rule 24.1 (b) and Federal Rule 29.1..................................
Federal Rule 24, Sections per crime victim....................................
Federal Rule 60...............................................................................
Model Rule 3.3 ©............................................................................
28 U.S.C. 131, Jurisdiction of civil actions.....................................
Constitutional Rights Violations, First, Eighth, Seventh & Fourteen
Article 1 Declaration of Rights.........................................................
Marsy’s Law....................................................................................
South Carolina Arbitration Act.........................................................

Title 9, Cal. Gov code 91000...........................................................

6

1
6

1,2,4
2
3
6,7
6,7
6
6

10

10
Bevins Law, 42 U.S.C. 1983...........................................................
No Statutes on Unalienable Rights or Constitutional Rights
No Statutes on Fraud, No Statutes on any crime against petitioner in South Carolina

1
SUMMARY
Petitioner, Audrey L. Kimner respectfully petitions for review and acceptance of this
Writ of Certiorari in this unusual and premeditated Racketeer Influence and Corrupt Organization
and Federal Wiretapping case, which is inappropriate monitoring Technology. Petitioner request
all orders and Mandate to be VACATED under Federal Rule 60, honor petitioners Default
Judgement, and, or elevate this case to The Supreme Court in Washington. Petitioner was the
only person to litigate this Federal case due to a pattern over ten years, and the scope of
Wiretapping technology and case law that few bar members have knowledge of. This case
contains new case law involving Web Watchers and Awareness Technologies, including
Respondents using the software to extort petitioners awarded assets while using tainted
privilege emails against the petitioner, violating Federal Laws with Irrevocable Binding Arbitration
and Formal Agreements in 2012 signed by all respective lawyers in a state court. Third party
Respondents intervened after petitioner was an assault victim in November 2008. California
District and Federal Court further harmed pettioner by depriving petitioner of Constitutional
Rights and insufficient process. Petitioner was forced to work pro se to stand up for herself,
resolve, and to reunite with college age children who were wiretapped, stalked and extorted in
another state, along with blocks placed on phones and computers to insure no contact to date.

OPINIONS BELOW
Judgements in the United States District Court, Northern District of California Dated: February 6,
2020, and followed by a denied motion to Reconsider. Order dated: October 29, 2020 to Dismiss
while stating petitioner is malicous and filed a Frivolous Federal Complaint. The District Court
later retracted petitoners varified Forma Pauperis after petitioner filed an appeal in the Ninth
Circuit court of appeals dated: March 02, 2020. Petitioner served all Respondents per TIME
SCHEDULE ORDER reply date on Tuesday, April 28, 2020. Petitioner filed a Default Judgement
and followed up with a Writ of Certiorari on November 30, 2020. Petitioner recieved a Mandate
Order after submitting and had no knowledge of any mandate. Petitioner could not have
prepared this Writ with no Writ experience in one day, nor had prior knowledge of any mandate
prior to mailing the Writ overnight by United States mail. In fact, the Supreme Court requested to
correct the Writ in the proper form twice with more time. Petitioner request a VACATE of all
orders due to violations of First Amendment Rights and Deprivation of Rights in the California
Federal Courts. Petitoner has never met one judge, nor spoken to any judge, and was denied
court time with case management hearings canceled without notice, or Proper Procedural Due
Process. The District court judges orders now reflect VACATED orders by the Honorable
Magistrate, and both ruled collectively on ‘‘speculation" of Rooker Feldman that petitioner was
trying to overturn a state family law case failing to state a claim upon which relief can be
granted. When petitioner tried to explain this was not the case, error of law, Lucy H. Koh denied
all of petitoners Constitutional Rights, Privacy Rights and necessary request for federal
restraints and safety. Petitioner is now aware that Federal orders can be VACATED if petitoner
was denied First Amendment Rights to be heard under Federal Rule 60. Petitioner was also
denied relief in The Ninth Circuit Court of Appeals with unwarranted stays multiple times.

2
JURISDICTION

Petitioner filed in the proper jurisdiction in California Federal District courts as a four year
resident of California. Petitioner filed a Federal complaint with a “pattern" with exclusive Rights
under (2) 47 U.S.C. § 227 to file in Federal Court in California. This diversity case is in the proper
jurisdiction under 28 U.S.C. § 1332, (a) (1), as Respondents are living in South Carolina,
Connecticut and Maryland while requesting punitive damages exceediing $75,000 within thirty
days of judgement. Petitioner is now a resident of four years after filing approximately one year
ago as the case was intentionally delayed, along with tampering, under 18 U.S.C.§ 1519.
The Respondents have crossed state lines involving computer interception, illegal wage
garnishing with perjurous court orders in attempts to defame, extort, and use threats and
intimidation to financially abuse petitioner in retaliation for petitioner reporting all Respondents
Federal crimes through the proper courts and federal agencies. Threats include extorting
placing a fraudulent lien placed on petitoners midrise and business to intentionally bankrupt
petition, as members of the bar, Respondents intentionally conspired with no restraints under
Model Rule 3.3 (c), which states a lawyer should “refuse to offer evidence that the lawyer
reasonably knows is false, and over a ten year time frame of approximately 150 false
contempts after petitoners family law case closed in finality in 2012 in Irrevocable Binding
Arbitration.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1) United States Constitution, Deprivation of Rights under 18 U.S.C. § 242
“ makes it a crime for a person acting under the color of law to willfully deprive a person of a
Right or privilege protected by the Constitution or laws of the United States”.

2) United States Constitution, Fourteenth Amendment," Due Process".
“No state shall make or enforce any law which shall abridge the privilege or immunity of citizens
of the United States; nor shall any state deprive any person of life, liberty, or property without
due process of law; nor deny to any person within its jurisdiction the Equal protection of the
laws.”

3
3) United States Constitution, Seventh Amendment.
Provides the Right to a federal jury trial under many Federal Rules and Statutes. Petitoner
requested a jury in her complaint with more than a six months sentence time for Wiretapping,
excluding many other federal crimes.

4) United States Constitution, Eight Amendment.
Excessive bail shall not be required, nor excessive fines imposed, nor cruel and unusual
punishments inflicted.

5) United States Constitution, First Amendment,
“ Congress shall make no law respecting an establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech, or of the press; or the right of the people
peacably to assemble, and to petition the Government for a redress of grievances”.

28 U.S.C. § 131 provides;
“ The district courts shall have original jurisdiction of all civil actions arising under the
Constitution, laws, or treaties of the United States."

[2

4
STATEMENT OF THE CASE WITH FACTS OF LAW
1. Whether the Supreme Court finds it appropriate by law, under The United States Constitution
and Federal Rule 60 to VACATE all attached orders in case No. 20-15343 and No. 5:19-cv06973 due to violations of petitioners First Amendment Rights, which reflect VACATED orders
by Honorable Magistrate Nathanael Cousins, and denied petitioners Rights under 28 U.S.C.
§ 636 (c) to deny a Magistrate judge by law and request a United States District Court judge
voted in by a President of The United States.

Petitioner respectfully request for the Supreme Court offer relief while the California
Federal Courts ignored all of petitioners Rights, especially the First Amendment
Rights to be heard. Petitioner requested a jury trial due to outstanding monies
withheld that needs to be audited per a ten year time frame to include royalties,
along with hard drive proof of many contacts in other countries, including stateside with
Respondent Thomas Kimner, and also involving Respondent Susan Kimner by interference of
custody, mental injury to our two now college age children, and theft of checkbooks of marital
monies without pettioners consent prior to divorce, and after, while Michael J. Kimner was in the
car under a No Contact and restraining order by a criminal court judge after assault and battery
arrest in 2008.

2. Whether the California District Court in San Jose and the Ninth Circuit Court of Appeals
intentionally and willfully deprived petitoner of all Rights under 18 U.S.C. § 242, denying
Equal Protections under the law while ignoring a pattern of over ten years of multiple Federal
Offenses and Constitutional violations by all Respondents with new case law by an Honorable
Ohio Sixth Circuit Court judge concerning Federal Wiretapping under the Wiretap Act.

Petitioner was denied all Rights for years, denied awarded assets and denied privacy Rights
with warranted protections. Petitioner was denied a hearing and open access to phone lines to
extorted college age children after petitioner filed a federal complaint, including a motion to
reconsider with Honorable Lucy H. Koh. All constitutional Rights were denied intentionally,
willfully and malicously against petitioners First Amendment Rights. Pettioner had a scheduled

5
hearing, which was canceled without notice, or Proper Procedural Due Process after months
concerning an acceptable Federal case and verified Forma Prosperous on the docket in
California District Court in San Jose. Petitoners personal, private and privileged information was
then placed on social media without petitioners consent or knowledge, an assault and Wiretap
victim, and during a global pandemic.

a) California Online Privacy Proteciton and Rights were violated, 2008 state statute,
were ignored as petitioners personal information was placed online for months by
the Federal District Court. Petitoner provided police reports from Monterey
County and forensic reports with proof in timelines and dates, including full
explanations and proof of continued illegal entry of wire interception in a full brief
on appeal in the Ninth Circuit Court of Appeals. Failure to safeguard and improper
disclosure of individual and business information to third parties and Facebook,
see Cullen v Zoom Video Communications, Inc., No. 5:20-cv-02155 (N.D. Cal).
Note: Petitioner continued to have illegal entry into Facebook, Facebook
Messenger, Twitter and petitioners personal phone downloading files when
petitioner is not touching phone, as of recent, and to date against federal laws
and crossing state lines with air interception. Petitioners Twitter account was
closed weeks prior and entered from a phone petitioner does not own. This is
considered “ real time” entry of invasion of privacy and Wiretapping.
b) Article 1 Declaration of Rights, petitioner requested protection and was denied all
Rights as an assault victim with proven and self admitted Federal crimes in open
Court by Repondent, Michael J. Kimner. New case law was mentioned in
petitioners Federal complaint to the District Court judge Honorable Lucy H. Koh
and in The Ninth Circuit on Appeal, but all was dismissed as " FRIVOLOUS”.
Pettioner then provided a full appeal with Federal proof attached in the
Ninth Circuit Court of Appeals and service proof to Respondents, including a
separate motion for an emergency hearing, which was never ruled on. This
Motion for an emergency hearing was intentionally ignored and prior to the Final
Order attached and date. Petitioner was again ignored by three Ninth Circuit

□

6
Court judges. Please see California Constitution Article 1, section 32, 3 (4).
“Nothing in this subversion supercedes or modifies any provisions of this
Constitution, including the guarantees that a person may not be deprived of life,
Liberty, or property without Due Process of law, or denied Equal protection of
Laws’, as provided in Section 7, Section 28 (14). "To prompt return of property
when no longer needed as evidence”. The entire section, under victim, as
Petitoner, (e) financial abuse and victim means protection of the victim,
including family members. Grandparents suffered tremendous elder abuse
Financial loss, including denied their Grandparents Rights. Petitoners
Entire families Rights were violated with unconstitutional gag orders with no
basis, proof or facts, nor proof. Family law case closed in 2012 in finality
with irrevocable binding arbitration, along with Formal agreements signed by
all respective lawyers. Arbitration in South Carolina did not change in the
Supreme Court, so petitioners arbitration award remains sound. Re:
SC § 15-48-10 (2019), all claims on awards and home remain irrevocable and
Binding, not allowed to be relitigated by any South Carolina judge in any county.

(c) Petitioners brief requested protections under Marsy’s Law to the Ninth Circuit
Court of Appeals due to petitioner being an assault victim. The three judge order
states Lucy H Koh stated petitoners case was “ frivolous”, even though petitioner
sent self admittance and proof of assault and arrest in a full brief by Medical
University concerning Michael Kimner, Respondent. Also, petitioners Forma
Pauperis was sound, but also paid for in advance and cleared the District Court
and Ninth Circuit Court of Appeals under check number 8188 on May 14, 2020 and
Check number 8179 on April 28, 2020 while two cases remained on stay for
Multiple Forma Properous affidavits. Under Rule 24, (3), petitioner had a prior
Approval to move forward Forma Pauperous and did not need any further affidavit
to file an appeal in the Ninth Circuit. Petitioner has monies withheld and needed
court time, especially after the global pandemic started. Petitioner believes this
was cruel while the court knowingly participated in tampering and delay against
Domestic laws of “ Rights to a fast trial, along with respect".

7
3. Whether the California Courts failed to acknowledge multiple violations of No Due Process,
and of withholding petitioner against her will under a false civil contempt bench warrant
concerning petitioners home contract, “ Wrongful arrest", as there was no service by law or
probable cause to arrest pettioner by South Carolina Respondents, and against an irrevocable
binding arbitration award while failing to offer petitioner Procedural Due Process in California
from October 2019 to date.

Petitioner was denied Due Procedural Due Process per Constitutional Rights in
California District Court and The Ninth Circuit, which refers to the Constitutional
Requirements with the Federal government acts in such a way that denies a citizen of
Life, liberty and property, along with the Right to be heard. A decision by a neutral
decision maker, the District Courts. Petitioner filed claims dating back to October
2019 and made all judges aware of Federal violations and Constitutional violations on a
trip to South Carolina, and now again in California by intentionally not serving
Respondents following statements posted online in public to “tip off’ Respondents to a
federal case filed. Petitioner was left no choice but to file an appeal in the Ninth Circuit
and serve Respondents pro se. Respondents failed to reply to the Ninth Circuit order,
April, 28, 2020. The Respondents intnentionally returned the served papers several
times, and months after proven service by United States mail. Petitioner provided proof
in her brief of being held against her will, and awarded assets withheld in exchange
for commerce against the Federal Hobbs Act. The Federal Hobbs Act fall under
U.S.C.§ 1951, 9-131.000, prohibits Robbery and Extortion affecting interstate or foreign
commerce. Re: Scheidler v National Organization for Women (2006). The Hobbs Act
Law prohibits interference with commerce by violence or threats of violence.
The Travel Act involving interstate travel in support of Racketeering, thus petitioners
bank accounts and awarded assets, including stolen home proceeds and investments.
Due Process falls under Fifth and Fourteenth Amendment Rights, and
Procedural Due Process was denied for petitioner. Petitioner was also denied
Privacy Rights under California Article 1. No Due Process, Re: Troxel v Granville, pages
99-138, (2000).

8
4. Whether petitioner was intentionally denied a jury trial against petitioners Seventh
Amendment Right.
Petitioner requested a trial due to monies outstanding, witnesses and involving multiple
third parties in Wiretapping and fraud. This case sentence is more than six months sentence
time for Wiretapping alone, not including the enormous loss. Please see, Balwin v New York,
399 U.S.C. § 117 (1970).

5. Whether the District Court judge and the Ninth Circuit judge’s intentionally retracted
Petitioners Forma Properous in retaliation for filing an appeal, vilified petitioner in court orders

Stating petitioner filed a “ Frivolous" complaint and a malicous litigant while ruling in error of
Rooker Feldman Doctrine on Speculation, not Federal law or Constitutional Violations with no
hearing under the United States Constitution.
This is not a family law case, which is a state matter. Lucy H. Koh states case law under
Rooker Feldman, but fails to mention any resolve for Federal Wiretapping, ignores our California
Privacy Constitution, especially in the motion to reconsider denial to petitioner. Please see
Lance v Dennis, 546 U.S.C. § 459 (2006), and The Supreme Court continues to narrow Rooker
Feldman Doctrine and does not fit this unusual federal case.

6. Whether this Racketeering Influence Corrupt Organization Act case involving Wiretapping and
multiple Federal crimes should have been taken serious by the California District Court and
Ninth Circuit Court of appeals.
Federal Wiretapping complaint was filled by petitioner against Web Watcher and Awareness
Technologies, including Respondents who were recently using petitioners privileged tainted
emails in open court in February and April 2018, after new case law in the Sixth Circuit Court,
Electronic Evidence in criminal investigatioin. See Luis v Zang, 833 F. 3d 619 (6th Cir. 2016).
Federal laws were violated in petitioners complaint by the same companies who do not
challenge the victimization claim, and admit to “concede”, and pay damages if victimized by
their software. Petitioner evidence proves to the Ninth Circuit, this federal case is “ NOT
FRIVOLOUS”, nor malicous intent by the petitioner. The Wiretap Act under 18 U.S.C. § 2511
with new case law confirms “ANY” illegal interception of a wire violates Federal Wiretap Laws.

9
Forensic reports were provided as evidence to the Ninth Circuit Court of Appeals in San
Francisco and documented in petitioners complaint to San Jose, California District Court.
Petitioner requested punitive damages for being victimized with indisputable enormous losses
but petitioner was blocked by all Federal court judges from receiving damages owed to the
petitoner. Petitioner also noted bar members using wiretapped tainted emails is a felony and
any felony is automatic disbarment, but petitioner was denied to file on Bar members,
Respondents named to obstruct justice.
Petitioner recently learned about this new case law when prior petitoner could not
sue the software companies. Also, petitioner did not know until recently that SAS Corporation
was linked to Web Watchers and Awareness Technologies where petitoners ex brother in law
Thomas Kimner, Respondent, is their global wiretapping and fraud executive. Petitioner has
possession of hard drives for proof, and South Carolina Respondents had knowledge prior to
receiving and using tainted privileged emails to win a case. The United States Court of Appeals
rules “ ANY” interception violates federal laws. Any person who intentionally intercepts, any
wire, oral or electronic communication, shall be punished by fine or imprisonment under 18
U.S.C.§ 2511,1 (a). Also relief as may be appropriate, 18 U.S.C.§ 2520, (a). Awareness
Technologies violated 18 U.S.C.§ 2511 by “ intercepting”, and petitioner has a Right to pursue a
private action, Federal claim per Luis v Zang, No. 14-3601. Also Re: Electronic Communications
Act, ( ECPA), United States v Kernell, 667 F. 3d 746, (Sixth Cir. 2012), as Michael Kimner was
going into petitoners Yahoo account in 2012 and after, proof given to the Ninth Cir. Court of
Appeals. Petitioners filed immediately after learning Web Watchers and Awareness
Technologies can be sued, and do indeed violate Federal Wiretap Laws. These software
companies selling software to Michael Kimner ruined ten years of petitoners life, business and
personal, and destroyed petitoners children entire childhood, with irreversable mental injury for
life. The nightmare has ruined pettioners family, and time that is irreplacable, including petitoners
motherhood. This twenty four hour monitoring and criminal stalking is Child Endangerment,
mental injury per child, and is intentional and willful, including SAS Corporation in North Carolina
who track CPS accounts involving millions of children, endangering children globally for profit.
This should be investigated, as stated in my federal complaint with Lucy H. Koh.

The lack of compassion and concern for children and parents with malicous actions towards the
petitioner and family is shocking! The abuse of power has been overwelming in Audrey L.
Kimner’s cases for ten years, and Cruel and Unusual Punishment for years for not reason. All
whom took an oath of office ignored endangered our children recklessly and intentionally for
years. Many in office were allowing Respondents to use petitioners wiretapped tainted emails
against petitoner, out of jurisdiciton, along with numerous recused judges who these
Respondents took full advantage of the courts time while judge shopping and changing case
number to achieve Federal offenses in South Carolina. All orders sent to California were under
the color of law, Re: Crandell v Nevada, 75 US 35, Supreme Court 1868.

10
Petitioner filed a Racketeering Influenced Corrupt Organization Act. This Act umbrellas over the
Hobbs Act Federal Law, 18 U.S.C. § 1951, 9-131,00. The Hobbs Act also falls under 18
U.S.C.§ 2332, criminal penalties, including (1961) 18 U.S.C.§ 201,1344,1503,1510,1511,
1513,1542,1544,1952,1546, especially 18 U.S.C. 2318 pertaining to computers in this case.
Please see, Scheidler v National Organizations for Women, (2006), Luis v Zang, No. 14-3601
and United States v Kernall-677 F 3.d 746, (6th Cir. 2012), as the same applies to Audrey L.
Kimner v Web Watcher, Awareness Technologies and named Respondents.

7. Whether the California courts intentionally ignored Mortgage fraud and violated public trust
laws in petitioners case.

Petitoner made the California judges aware that petitoners house contract was illegally signed
By a court administrator in South Carolina by South Carolina Respondents out of jurisdiction
with no witnesses for a notary. The FBI stated this was fraud and illegal, and for petitioner to file
suit in a federal court. Petitioner filed and was once against denied a hearing to make the county
return petioners home proceeds with punitive damages by law. This violates Public Trust laws in
California and South Carolina. The California judge states improper venue, but refused to allow
petiioner to have a hearing to overturn this bad faith litigation with litigation on mortgage fraud,
including ignoring victims Rights by law that petitioners home proceeds or home must be
returned. The false buyer stated she did not purchase petitioners home, although her name is on
the contract, not including the cash that was exchanged in exchange for commerce against
federal Hobbs Act laws. Willful or knowing violation of the statutory chapter on ethics, i.e., Title 9.
Upon conviction for each violation falls under Cal. Gov. code § 91000. Please see National
Audubon Society v Superior Court, 33 Cal. 3d 419 (1983). Hobbs Act, U.S.C. 1951, 9-131.010,
prohibits actual or attempted robbery and extortion interfering with commerce by threats and
violence. Please see, Scheidler v National Organization for Women (2006). Fraud has no
statutes and must be addressed until resolve by law, therefore the case is still open.
Note: Once again dimissing a case while violating petioners First Amendment Right to be heard.
Morgage Fraud is clear, and one law alone allows for one million in damages concerning
Mortgage Fraud. Please see Section 7, Sec 28 (14) To prompt return of property when no longer
needed as evidence. This entire section, under victim, as petitioner, (e) financial abuse, and
means protection of the victim, including family members whom have been forced to endure
financial loss as well due to intentional harm and injustice.

11
CONCLUSION
Petitioner filed this Racketeer Influence Organization Act case after assault arrest, years of legal
abuse and being tortured by Respondents abusing the court system to extort petitioner for
awarded assets while using our two children. This is a proven case involving wiretapping, which
allowed all Respondents to achieve all federal crimes. Petitioner has endured torture beyond
comprehension by Respondents. Petitioner thought California Federal Courts would be the place
to finally make all accountable by law, and to stop the ongoing stalking and federal crimes,
including making Berkeley County South Carolina accountable for forgery, false imprisonment
and taking petitioners livelihood, especially years of natural motherhood. The list of awarded
assets are enormous, and the California District Court judges have now allowed all to obstruct
petitoners justice, and failed to have petitioners assets returned by law, including violations
petitioner Constitutional Rights. Petitioner had the Rights to file in the Federal Court in California
in the proper jurisdiction where there is safety, but all judges refused to allow any court time
while refusing to offer Procedural Due Process and canceling all hearings on the same day, five
days prior, numerous orders not given to petitioner and moved hearing dates multiple times for
opposing counsel exparte. Due to ignoring petitioners Rights, the California federal courts forced
petitoner to stay on SSI while refusing to make Respondents return petitioners homes, new car,
Heirloom business furniture, 401 K, retirement by previous prepared QDRO”s, investment with
half partnership, monies tied to the SCC in New York since 2011. This was due to retaliation and
fraud. One midrise was not tied to any case in South Carolina, including pettioner business that
all involved tried to extort as well. Petitioner no longer trust judges in multiple cities after all have
violated Public trust, especially petitioners First Amendment Right. There is new case law for all
that have experienced the same child trafficking and suffering after assault that ended in a child
committing suicide. Petitioner has a Right to speak to her adult children who were extorted with
mental injury that is dangerous and irreversable. Please see, Potts v Lazarin, No. H044587 in
the California 6th Circuit Court, and the First Anti Slapp Law that was in the fathers favor that
went through litigation abuse as well. All of this could have been avoided had the Respondents
been made accountable prior for violating Federal Wiretap Laws, and for Respondent bar
members who have been previously found guilty of vexatious litigation with lawsuits to remove
monies from Berkeley County School Board, which is all public knowledge. Lori Stoney, Esq.
was involved in other money laundering family schemes that are public knowledge and under
lawsuits per the local paper in South Carolina when she was illegally taking petitioners assets as
well. Petitoner has spoken to the family that refused to acknowledge that Respondent is in their
family to date.This case in indisputable and petitioner is allowed punitive damages by law for
intentional and malicous harm. Petitioner would appreciate any judge from the Supreme Court to
help elevate this case to Washington to recieve a fair trial, or order Respondents to ackowledge
their own words to conceed and pay damages if petitioner was victimized, and honor petitioners
filed Default Judgement. Petitioner needs an audit of all monies by Respondents who have the
knowledge and whereabouts of petitoners assets that were moved to cash, in their homes and
global banks. Peitioner appreciates the Supreme Court for reviewing this case for final resolve.

12
ERROR OF HONORABLE JUDGES
All judges denied all of petitioners Rights without reviewing or listening to one word in petitioners
Federal complaint and Appeal. There is a list below of Canons of Ethics violated in this case. All
of victims Rights, horrendous harassment and restraint request were ignored, and judges did
not acknowledge or care that South Carolina is double the National average for women being
murdered by Domestic Violence when I had to leave the state out of fear of being murdered.
Please note the canons violations in this case by Judges ignoring their oaths of office
concerning this case.
Canon 1, A judge shall uphold and promote the independence, integrity and impartiality of the,
and shall avoid impropriety and the appearance of impropriety.
Canon 2, A judge shall perform the duties of judicial office impartially, competently and diligently.
Canon 2.3, Bias, prejudice and Harassment.
Canon 2.9, Ex Parte Communications
Canon 3, A judge shall conduct the judges personal and extra judicial activities to minimize
with the risk of conflict with the obligations of judicial office.
3.5, Use of Confidential information
3.6, Affiliate with Discriminatory Organizations- Petitoner has been discriminated against for
being pro se, a white women and mother.

The Petition for Writ of Certiorari should be granted.

Respectfully submitted by:

AUDREY L. K NER, Petitioner, Pro se
P.O. Box 1493
Carmel, CA. 93921
843-754-1543
audrevkimnerlO@amail.com

Case 5:19-cv-06973-LHK Document 28

Filed 03/20/20 Page 2 of 7

1

Complaint was deficient. Id. Specifically, Judge Cousins determined that the Initial Complaint

2

failed to adequately allege that this Court properly had subject matter jurisdiction over the suit. Id.

3

at 2-3. Judge Cousins also stated that the relief sought by Plaintiff was both procedurally

4

inappropriate and also barred by the Rooker-Feldman doctrine. Id. at 3-4. Judge Cousins granted

5

Plaintiff leave to file an amended complaint and warned Plaintiff that she must cure the

6

deficiencies identified or Judge Cousins would recommend dismissal. Id. at 4. On November 15,

7

2019, Plaintiff filed a declination of United States Magistrate Judge jurisdiction, ECF No. 7, and

8

the case was reassigned to this Court, ECF No. 9.

9

On December 9, 2019, Plaintiff filed a letter with the Court requesting that the Court

10

“add [the letter to the] original complaint” filed in October. ECF No. 15 at 1 (the “Amended

11

Complaint”). On December 16, 2019, Plaintiff filed another document and requested that it also

12

be “add[ed] to both letters,” ECF No. 16 at 1, which appears to refer to the Complaint and the

13

Amended Complaint, ECF Nos. 1,15. Construing the three filings together, the Court concluded

•H £

14

that Plaintiffs’ pleadings continued to suffer from the same deficiencies identified by Judge

Q.i
C/3
i-

is

Cousins. ECF No. 19. Asa result, on February 6, 2020, the Court dismissed Plaintiffs case

16

without leave to amend and entered judgment. ECF Nos. 19, 20. On February 19, 2020, Plaintiff

£ £

17

filed a motion for reconsideration, ECF No. 22, which the Court denied, ECF No. 24.

Z

18

.2

is
o<2
-4->

d

B tS
S q
GO
TJ £
jb

ti
o

On February 28, 2020, Plaintiff filed a notice of appeal to the Ninth Circuit. ECF No. 25.

19

On March 2, 2020, the Ninth Circuit referred the matter to this Court for a determination of

20

whether Plaintiffs in forma pauperis status should continue for Plaintiffs appeal. 9th Cir. Case

21

No. 20-15343, ECF No. 2.

22

II.

23

DISCUSSION
Motions to proceed in forma pauperis on appeal are governed by 28 U.S.C. § 1915 and

24

Federal Rule of Appellate Procedure 24. Hooker v. American Airlines, 302 F,3d 1091, 1092 (9th

25

Cir. 2002). Proceeding in forma pauperis on appeal is a privilege, however, not a right. Thus,

26

“[a]n appeal may not be taken in forma pauperis if the trial court certifies in writing that it is not

27

taken in-good faith.” 28 U.S.C. § 1915(a)(3); see also Fed. R. App. P. 24. In the absence of some

28

2
Case No. 19-CV-06973-LHK
ORDER REVOKING PLAINTIFF’S IN FORMA PAUPERIS STATUS

Case 5:19-cv-06973-LHK Document 28 Filed 03/20/20 Page 3 of 7

1

evident improper motive, the applicant’s good faith is established by the presentation of any issue

2

on appeal that is not frivolous. Gardner v. Pogue, 558 F.2d 548, 551 (9th Cir. 1997). An action is

3

frivolous for purposes of § 1915 if it “lacks an arguable basis in law or fact.” Shehee v. King,

4

2015 WL 1839817, at *2 (E.D. Cal. Apr. 21, 2015) (quoting Neitzke v. Williams, 490 U.S. 319,

5

328-30 (1989)). A complaint or appeal lacks an arguable basis in law if controlling authority

6

requires a finding that the facts alleged fail to establish even an “arguable legal claim.” Gutti v.

7

INS, 908 F.2d 495, 496 (9th Cir. 1990) (citation omitted). Here, the Court finds that Plaintiffs

8

appeal lacks an arguable basis in fact or law.

9
10
11

A. Initial Complaint
First, with respect to Plaintiffs Initial Complaint, ECF No. 1, Judge Cousins found
substantial issues that rendered the pleading deficient.
For example, in his November 12, 2019 order, Judge Cousins found that Plaintiff had

C3

12

1O tg|

13

failed to sufficiently invoke the Court’s subject matter jurisdiction. With respect to federal

.2 O

14

question jurisdiction under 28 U.S.C. § 1331, Plaintiff variously listed federal causes of actions,

5 ts

15

including “the Federal Wiretapping Act, the Fourteenth Amendment, the Hobbs Act, the First

16

Amendment, and the “Bill of Rights[,] Life, Liberty and the pursuit of happiness,” see ECF No. 6

17

at 3. Judge Cousins found that the “factual allegations supporting these claims, insofar as the

18

Court can understand them, involve the plaintiff losing custody of her children in a family court

19

matter where some defendants used ‘tainted’ emails.” Id. (quoting Initial Compl. at 6-10).

20

However, Judge Cousins found that Plaintiff had failed to adequately allege any claims under

21

those federal causes of action. Id. As a result, Judge Cousins found that the complaint had likely

22

failed to adequately assert the Court’s subject matter jurisdiction pursuant to 28 U.S.C. § 1331. Id.

23

Similarly, with respect to diversity jurisdiction under 28 U.S.C. § 1332(a)(1), Judge

o IScd

co 'C

£ tt

8 5

GO w

■a E

B J2

c *
D ©

Z

24

Cousins found that Plaintiff had failed to adequately allege an amount in controversy over

25

$75,000. ECF No. 6 at 2. Although Plaintiff had requested “$100,000,000, plus additional

26

millions of dollars,” Judge Cousins found that Plaintiff “provide[d] no factual basis for this

27

damages claim.” Id. Instead, Judge Cousins found that Plaintiffs “requested relief seems

28

3
Case No. 19-CV-06973-LHK
ORDER REVOKING PLAINTIFF’S IN FORMA PAUPERIS STATUS

Case 5:19-cv-06973-LHK Document 28 Filed 03/20/20 Page 4 of 7

1

primarily injunctive, and the $100,000,000 sought is not explained.” Id. As a result, Judge

2

Cousins held that that Plaintiff had likely failed to invoke diversity jurisdiction pursuant to 28

3

U.S.C. § 1332(a)(1). Id.

4
5
6
1
8
9
10
11
«

12

uq <2
£ 73

13

i E

First, this Court lacks the authority to overturn decisions made by a family court
under the Rooker-Feldman doctrine, which states that federal courts cannot hear
appeals from state court judgments. Cooper v. Ramos, 704 F.3d 772, 778 (9th Cir.
2012); Mellema v. Washoe County Dist. Attny., 2010 WL 5289345 at *2 (E.D. Cal.
Oct. 23,2012) (applying Rooker-Feldman to family court). Therefore, this Court has
no power to grant Kimner immediate contact with her children if the family court
has ordered a different custody arrangement. Additionally, this Court cannot issue a
restraining order without a motion made under Federal Rule of Civil Procedure 65.
Finally, this Court can only issue sanctions against attorneys appearing before it
under Federal Rules of Civil Procedure 11 or 37; sanctions against attorneys located
and practicing in different jurisdictions can be sanctioned by those courts or by their
relevant bar associations. This Court cannot order the relief Kimner seeks.
ECF No. 6 at 4. Judge Cousins gave Plaintiff thirty days to file an amended complaint that cured
the identified deficiencies. Id. Judge Cousins warned Plaintiff that if she failed to timely file an
amended complaint “curing the deficiencies identified in this Order,” Judge Cousins would

15
“recommend dismissal of this action.” Id.
16
B. Amended Complaint

T3 £

. M £
G tJ
D o
£

and procedural issues. Judge Cousins explained:

14

o

5 o
C/5
B
•S Q
C/1

Relatedly, Judge Cousins also found that Plaintiffs requests for relief posed jurisdictional

17

After the case was reassigned to this Court, the Court in an order issued on February 6,

18
2020 found that Plaintiff had still failed to cure the deficiencies identified by Judge Cousins and to
19
request any relief that could be granted by the Court. ECF No. 19. As discussed above, the Court
20
construed all three of Plaintiff s pleadings together. ECF Nos. 1, 15, 16. As with the Initial
. 21
Complaint, Plaintiffs claims continued to be deficient because they merely raised the specter of
22
federal statutes without ever requesting any corresponding relief.
23
Instead, Plaintiffs Amended Complaint doubled down on injunctive relief that the Court
24
was without power to grant. For example, Plaintiff continued to request custody of her children.
25
See, e.g., Am. Compl. at 14 (“1 deserve to have a relationship with my God Given children and for
26
all involved to be accountable by law.”). Plaintiff asked the Court to “please report false child
27
28

4
Case No. 19-CV-06973-LHK
ORDER REVOKING PLAINTIFF’S IN FORMA PAUPERIS STATUS

Case 5:19-cv-06973-LHK Document 28 Filed 03/20/20 Page 5 of 7

1

support and illegal wage garnering by [South Carolina],” Am. Compl. at 14, which the Court is

2

without power to grant under the Rooker-Feldman doctrine.

3

As discussed above, Judge Cousins had previously explained to Plaintiff that these exact

4

same requests for relief were jurisdictionally deficient. ECF No. 6 at 4. Despite Judge Cousins’s

5

warning that he would recommend dismissal should Plaintiff fail to cure these deficiencies, id.,

6

Plaintiff continued to request relief that the Court is without power to grant. Because these issues

7

are jurisdictional and because Plaintiff had already been explicitly notified of such by Judge

8

Cousins’s November 12, 2019 order, the Court concluded that any amendment would be futile and

9

dismissed the case without leave to amend. ECF No. 19 at 2-3. On February 6, 2020, the Court

10
11
.2

I |

12

also entered judgment in favor of Defendants. ECF No. 20.
C. Motion for Reconsideration
Plaintiff subsequently filed a motion for reconsideration after the Court dismissed the

13

complaint without leave to amend and entered judgment. See ECF No. 22. As an initial matter,

.2 U
& o

14

Plaintiffs request was not proper under both Federal Rule of Civil Procedure 54(b) and Civil

5 o

15

Local Rule 7-9(a). Federal Rule of Civil Procedure 54(b) provides that a Court may reconsider its

IQ

16

decisions only prior to entry of final judgment. Civil Local Rule 7-9(a) similarly provides that

•C rS
t!

17

motions for reconsideration may only be filed prior to entry of final judgment, and in any event

18

requires leave of the court before such motion may be filed. Nonetheless, in the interest of justice

19

because Plaintiff was pro se, the Court reviewed Plaintiffs motion and issued an order that could

20

aid Plaintiff in pursuing any viable claims that she might have.

O =

C/3

U*

-o
£
<D <U

5 O

£

21

In her motion for reconsideration, Plaintiff did not provide any basis for the Court to

22

reconsider its decision to dismiss the instant case without leave to amend. ECF No. 22; see Civ.

23

L.R. (providing that any motion for reconsideration must be based upon a “material difference in

24

fact or law,” “emergence of new material facts or a change of law,” or “manifest failure by the

25

Court to consider material facts or dispositive legal arguments which were presented to the

26

Court”). Instead, Plaintiff based her request for reconsideration on her insistence that she had

27

proof to substantiate her claims, including “tapes and documents that nobody has seen.” Id.

28

5
Case No. 19-CV-06973-LHK
ORDER REVOKING PLAINTIFF’S IN FORMA PAUPERIS STATUS

Case 5:19-cv-06973-LHK Document 28 Filed 03/20/20 Page 7 of 7

1

and reversing garnishment of her wages for child support by South Carolina. Because the Court’s

2

dismissal was premised on jurisdictional deficiencies, the Court concludes that Plaintiffs claims

3

lack an arguable basis in law or fact. Plaintiff thus fails to present a non-frivolous issue for appeal.

4

III.

5

CONCLUSION
Based on the foregoing, pursuant to 28 U.S.C. § 1915(a)(3), the Court hereby CERTIFIES

6

that Plaintiffs appeal is not taken in good faith and REVOKES Plaintiffs in forma pauperis

7

status. Any further request to proceed on appeal in forma pauperis should be directed, on motion,

8

to the Ninth Circuit in accordance with Federal Rule of Appellate Procedure 24.

9
10

The Clerk shall notify the Ninth Circuit of the Court’s instant order.
IT IS SO ORDERED.

11
.2

12

o IS

13

■g
^
+3 <4-(

14

Q o

15

II
-4—*

c/5

0d

'^UJJ {l.
lucyCtkoh
United States District Judge

O

vi "C

n ts

as

00 M

•

Dated: March 20, 2020

•o £

16

a J*

17

Z

18

c t:
D O

19
20

21
22
23
24

25
26
27

28

7
Case No. 19-CV-06973-LHK
ORDER REVOKING PLAINTIFF’S IN FORMA PAUPERIS STATUS

Case 5:19-cv-06973-LHK Document 28 Filed 03/20/20 Page 6 of 7

1

Plaintiff asserted that the Court had “violated [her] privacy rights [through] dismissal without

2

seeing proof.” Id.

3

Yet Plaintiffs repeated argument that she had proof of her claims again failed to address

4

the deficiencies first identified by Judge Cousins in November and then in the Court’s February 6,

5

2020 dismissal order. Specifically, Plaintiff again failed to request any relief that the Court could

6

grant, despite multiple court orders so explaining. See id. Indeed, Plaintiffs motion for

7

reconsideration did not identify any relief requested, nor did the motion allege any additional facts.

8

Instead, Plaintiff repeated the same conclusory allegations she made across her first three

9

pleadings: “I have numerous violations of my privacy, jailed [sic] illegally, my home proceeds

10

stolen, my children stalked and endangered for years, my children tracked without my consent and

11

knowledge.” ECF No. 22 at 2. Plaintiffs motion for reconsideration thus did not alter the

.2

12

conclusion that this federal court is the wrong forum for her claims. Plaintiffs mere recitation of

u 13

13

federal statutes without requesting any relief whatsoever under those statutes is insufficient to

.2 U
% o

14

grant the Court jurisdiction. See, e.g., Naufahu v. Bd. of Trustees, 2010 WL 624321 (dismissing

5 o

15

pro se complaint that “provides no short and plain statement of any claim or a statement as to what

16

relief she may be entitled to under federal law”).

i |
-4—>

oj

C/5

1)

to

13 Q

C/3

<D

e
Sm
<D

• - -S
c tE
o

Z

17
18
19

20
21
22
23

In fact, the Court explained that the Court’s dismissal without leave to amend constituted a •
dismissal without prejudice. See ECF No. 19. Specifically, the Court explained:
[Although the Court dismissed the case without leave to amend, the Court’s
dismissal is without prejudice, which means that the Court’s dismissal “does not bar
the plaintiff from refiling the lawsuit within the applicable limitations period.” See
Semtek Int’l Inc. v. Lockheed Martin Corp., 531 U.S. 497, 505-06 (2001).
Specifically, the Court’s February 6, 2020 order dismissing the case was based on
Plaintiffs failure to request any relief that could be granted by this Court. See ECF
No. 19 at 2-3. For example, the Court found that Plaintiff could not. bring claims on
behalf of her children because they are no longer minors, nor could Plaintiff seek
relief from state court judgments pursuant to the Rooker-Feldman doctrine. Id.

24

ECF No. 24 at 1-2. The Court’s dismissal without prejudice thus allowed Plaintiff to pursue the

25

relief she seeks from any state court that would have jurisdiction.

26
27
28

In sum, across at least four substantive filings with the Court, Plaintiff has repeatedly
sought relief from state court judgments, such as obtaining custody of her now adult-age children

6
Case No. 19-CV-06973-LHK
ORDER REVOKING PLAINTIFF’S IN FORMA PAUPERIS STATUS

U.S. Department of Justice
Criminal Division

Public Integrity Section

Washington, D.C. 20530

OCT 2 62020
Ms. Audrey L. Kimner
PO Box 1493
Carmel By The Sea, CA 93921-1493

Dear Ms. Kimner:
This is in response to your letter, White House # 20064198, dated September 18, 2020 to
the President, noting concerns related to a case filed by you in federal court. We have been aske
to respond to you on his behalf.
Pursuant to Title 28, United States Code, Section 351, if you believe that a federal judge
has engaged in conduct that is “prejudicial to the effective and expeditious administration of the
business of the courts,” you may file a written complaint with the clerk of the court of appeals for
the appropriate federal circuit. The complaint will be reviewed by the Chief Judge for the circuit.
Should you wish to contact that office directly, you may write:
Molly Dwyer, Clerk of Court
Office of the Clerk
U.S. Court of Appeals for the Ninth Circuit
P.O. Box 193939
San Francisco, CA 94119-3939
We rely on investigative agencies to gather the relevant facts. If you believe this matter
may constitute criminal activity, please contact the Federal Bureau of Investigation (FBI), the
investigative arm of the Department of Justice. The FBI will determine whether a federal
investigation may be warranted. If appropriate, the FBI will refer the matter to a United States
Attorney for a final determination regarding legal action.

Additional material
from this filing is
available in the
Clerk's Office.

